No. 19In the

Supreme Court of the United States
THE E-COMPANY, A DISSOLVED ILLINOIS
CORPORATION, T&W EDMIER CORP., A
DISSOLVED ILLINOIS CORPORATION, EDMIER
CORP., AN ILLINOIS CORPORATION, K EDMIER
& SONS, LLC, AN ILLINOIS LIMITED LIABILITY
CORPORATION, THOMAS EDMIRE, INDIVIDUALLY,
WILLIAM EDMIER, INDIVIDUALLY, LAKE
STREET REALTY, INC., A DISSOLVED ILLINOIS
CORPORATION AND E &E EQUIPMENT
& LEASING, INC. AN ILLINOIS CORPORATION
Petitioners,
v.
TRUSTEES OF THE SUBURBAN TEAMSTERS
OF NORTHERN ILLINOIS PENSION FUND,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals For The Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Merle L. Royce II, Esq.
Counsel of Record
135 South LaSalle Street,
Suite 4000
Chicago, Illinois 60603
(312) 553-1233
royce4law@gmail.com
289445

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The sponsor of a multiemployer pension fund issued
a notice of withdrawal liability to contributing employers
prior to a suit to collect the claim under the Employer
Retirement Income Security Act (“ERISA”). Petitioners
challenged the notice, claiming it violated their rights
to due process under this Court’s decision in Mullane v.
Central Hanover Bank & Trust Co., 339 U.S. 306 (1950).
Specifically, Petitioners claimed (a) the notice misstated
control group liability and failed to apprise them of
mandatory arbitration under ERISA, and (b) no notice
was given the employers’ co-owners from whom the plan
sponsor sought recovery, even though the identities of the
co-owners was known or easily ascertainable. The District
Court found Mullane inapplicable and that the Seventh
Circuit’s decision in Central States S.E. & S.W. Area
Pension Fund v. Slotky, 956 F.2d 1369, 1373 (7th Cir. 1992),
provided the applicable due process standard, allowing
it to review the control group issue where a party “has
absolutely no reason to believe they might be members
of a control group.” It went on to find on the merits that
the co-owners and other entities owned by them were
liable. In affirming the District Court, the Seventh Circuit
held that Mullane was limited to court cases, that Slotky
provided an appropriate framework and standard and that
Petitioners suffered no harm because they were found
liable on the merits. Three questions are presented:
(1) Are Mullane’s due process standards limited to
notice in lawsuits and Petitioners’ objections to
the plan sponsor notice of withdrawal liability
unfounded?

ii
(2) Is Slotky a reasonable substitute for the due
process articulated by this Court in Mullane?
(3) Does the District Court’s finding against the
Petitioners on the merits obviate their right to
due process?

iii
PARTIES TO THE PROCEEDINGS
The parties in the proceedings below are listed in
the caption.

iv
CORPORATE DISCLOSURE STATEMENT
The E Company, T&W Edmier Corp., Lake Street
Realty Inc. and E & E Equipment & Leasing, Inc. were
all Illinois Corporations’ which have been dissolved. None
of these former corporations was owned by a parent
corporation nor did any public corporation own a 10%
interest in them.
Edmier Corp. is an Illinois Corporation owned by
William Edmier. individually. K. Edmier & Sons LLC is
an Illinois limited liability company which is individually
owned The William Edmier Trust is an Illinois land trust,
beneficially owned by William and Thomas Edmier.

v
STATEMENT OF RELATED PROCEEDINGS
The proceedings in the federal trial and appellate
courts identified below are directly related to the above
captioned case in this Court.
Trustees of the Suburban Teamsters of Northern
Illinois Pension Fund v. The E Company,et. al, Case
No. 1:15-cv-10323 (N.D. IL). The United States District
Court for the Nothern District of Illinois entered final
summary judgment in favor of respondent on liability
on March 21, 2018 (App. C, 17 a) and a final judgment
awarding respondent damages and other relief on May
9, 2018 (App. B. a).
Trustees of the Suburban Teamsters of Northern
Illinois Pension Fund v. The E Company, et. al., Case
No. 18-2273 (7th Cir.). The Court of Appeals for the Seventh
Circuit entered judgement in this matter on January 29,
2019 (App. A, 1a). The Seventh Circuit denied Petitioners’
request for rehearing with a suggestion for rehearing en
banc on March 4, 2019 (App. D. 37a)

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
STATEMENT OF RELATED PROCEEDINGS . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . .  ix
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
A. Introduction  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
B. The Trustees’ Notice To Petitioners . . . . . . . . . . 5
C. The Proceeding Below . . . . . . . . . . . . . . . . . . . . . . 7
REASONS FOR GRANTING THE PETITION . . . . 10

vii
Table of Contents
Page
I.

THE DECISION BELOW CONFLICTS
W I T H MU L L A N E A N D O T H ER
AU T H O R I T Y O F T H I S C O U R T
BA SED ON ITS CONSTITUIONA L
STANDARD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

II. THE SEVENTH CIRCUIT’S DECISION
IN SLOTK Y RELIED ON BELOW
UNDERCUTS THE CONSTITUTIONAL
STA N DA RDS ESTA BLISH ED BY
MULLANE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
III. THE SEVENTH CIRCUIT’S REVIEW
CONFLICTS WITH THIS COURT’S
HOLDING IN PERALTA  . . . . . . . . . . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

viii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT, FILED
JANUARY 29, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION FILED MAY 9, 2018 . . . . . 8a
APPENDIX C — MEMORANDUM OPINION
AND ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS , EA ST ERN
DIVISION, DATED MARCH 21, 2018  . . . . . . . . .  17a
APPENDIX D — DENIAL OF REHEARING OF
THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT, CHICAGO,
ILLINOIS 60604, FILED MARCH 4, 2019  . . . . . 37a

ix
TABLE OF CITED AUTHORITIES
Page
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Central States S.E. & S.W. Area Pension Fund v.
Slotky,
956 F 2d 1369 (7th Cir. 1992) . . . . . . . . . . . . . . . passim
Central States, Southeast Pension Fund v.
Personnel, Inc.,
974 F.2d 789 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Connors v. Incoal, Inc.,
995 F.2d 245 (D.C. Cir 1993)  . . . . . . . . . . . . . 18, 19, 23
Greene v. Lindsey,
456 U.S. 444 (1982) . . . . . . . . . . . . . . . . . . . . . . . .  19-20
Jones v. Flowers,
547 U.S. 220 (2006) . . . . . . . . . . . . . . . . . . . . . . . . 14, 20
Matsushita Electric Industrial Co. v.
Zenith Radio Corp,
475 U.S. 574 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Memphis Light, Gas and Water Division v.
Craft,
436 U.S. 14 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . .13, 16
Mennonite Board of Missions v. Adams,
462 U.S. 791 (1983)  . . . . . . . . . . . . . . . . . . . . . 13, 14, 20

x
Cited Authorities
Page
Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 386 (1950) . . . . . . . . . . . . . . . . . . . . . . . passim
Pension Benefit Guaranty Corp. v.
R. A. Gray & Co.,
467 U.S. 717 (1984)  . . . . . . . . . . . . . . . . . . . . . . . . . 5, 18
Peralta v. Heights Medical Center,
485 U.S. 80 (1988) . . . . . . . . . . . . . . . . . . . . . . 12, 24, 25
Reeves v. Sanderson Plumbing Products, Inc.,
500 U.S. 133 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Schroder v. City of New York,
371 U.S. 208 (1962)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Tulsa Professional Collection Services, Inc. v.
Pope,
485 U.S. 478 (1988)  . . . . . . . . . . . . . . . . . . . . . 14, 20, 23
Walker v. City of Hutchinson,
352 U.S. 112 (1956)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Constitution:
U.S. Constitution Amendment V  . . . . . . . . . . . . . . . . . . . 1
Statutes:
29 U.S.C. § 1301(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 18

xi
Cited Authorities
Page
29 U.S.C. § 1399(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5
29 U.S.C. § 1399(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C. § 1401(a)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 5.
29 U.S.C. § 1401(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
OPINION BELOW
The opinion of the United States Court of Appeals
for the Seventh Circuit is reported in Trustees of the
Suburban Teamsters of Northern Illinois Pension Fund
v. The E Company, et. al., 914 F.3d 1027 (7th Cir. 2019)
(App. A, 1a) The Seventh Circuit affirmed the March 21,
2018 decision of the United States District Court for the
Northern District of Illinois which is reported in 2018 WL
142717 (N.D. Ill. 2018) (See App. A, 1a and App. C, 17a)
STATEMENT OF JURIDICTION
This Court’s jurisdiction is invoked under 28 U.S.C.
§ 1254(1) The Seventh Circuit’s opinion was rendered
entered on January 29, 2019. (App. A, 1a) The Court of
Appeals denied a Petition for Rehearing With a Suggestion
for Rehearing En Banc on March 4, 2019. (App. D, 37a) On
May 28, 2019, Justice Kavanaugh extended the for filing
a petition for certiorari to and including August 1, 2019.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fifth Amendment to the Unites States
Constitution:
No person shall be . . . deprived of life, liberty,
or property, without due process of law; . . . .
Title 29 United States Code Sections 1301(b)(1):
(b)(1) . . . For purposes of this subchapter, under
regulations prescribed by the corporation, all

2
employees of trades or businesses (whether
or not incorporated) which are under common
control shall be treated as employed by a single
employer and all such trades and businesses as
a single employer. The regulations prescribed
under the preceding sentence shall be consistent
and coextensive with regulations prescribed
for similar purposes by the Secretary of the
Treasury under section 414(c) of Title 26.
Title 29 Unites States Code Sections 1399 (b) (1), (2):
(b)(1) As soon as practicable after an employer’s
complete or partial withdrawal, the plan
sponsor shall—
(A) notify the employer of—
(i) the amount of the liability, and
(ii) the schedule for liability payments, and
(B) demand payment in accordance with the
schedule.
(2)(A) No later than 90 days after the employer
receives the notice described in paragraph (1),
the employer—
(i) may ask the plan sponsor to review any
specific matter relating to the determination
of the employer’s liability and the schedule of
payments,

3
(ii) may identify any inaccuracy in the
determination of the amount of the unfunded
vested benefits allocable to the employer, and
(iii) may furnish any additional relevant
information to the plan sponsor.
(B) After a reasonable review of any matter
raised, the plan sponsor shall notify the
employer of(i) the plan sponsor’s decision,
(ii) the basis for the decision, and
(iii) the rea son for a ny cha nge i n the
determination of the employer’s liability or
schedule of liability payments.
Title 29 United States Code Section 1401 (a)(1):
(1) Any dispute between an employer and
the plan sponsor of a multiemployer plan
concerning a determination made under
sections 1381 through 1399 of this title shall
be resolved through arbitration. Either party
may initiate the arbitration proceeding within
a 60-day period after the earlier of—
(A) the date of notification to the employer
under section 1399(b)(2)(B) of this title, or
(B) 120 days after the date of the employer’s
request under section 1399(b)(2)(A) of this title.

4
The parties may jointly initiate arbitration
within the 180-day period after the date of the
plan sponsor’s demand under section 1399(b)
(1) of this title.
Title 29 United states Code Section 1401(b)(1):
(b) (1) If no arbitration proceeding has been
initiated pursuant to subsection (a), the amounts
demanded by the plan sponsor under section
1399(b)(1) of this title shall be due and owing
on the schedule set forth by the plan sponsor.
The plan sponsor may bring an action in a State
or Federal court of competent jurisdiction for
collection.
STATEMENT OF THE CASE
A. Introduction
The Trustees of the Suburban Teamsters of Northern
Illinois (“the Trustees”) are the plan sponsor of a
multiemployer pension fund to which Petitioners T&W
Edmier Corp (“T & W Corp.”) and The E Company
contributed. The Trustees obtained a summary judgement
in the District Court of $858,319.52 for unpaid withdrawal
liability, interest, liquidated damages and attorney fees
against the E-Company, T & W Corp. and the “Edmier
Control Group.” This control group included Thomas and
William Edmier (“the Edmiers”), the co-owners of T&W
Corp. and the remaining Petitioners.
Withdrawal liability was added to the Employer
Retirement Income Security Act (ERISA) to require a
sponsor of a multiemployer pension plan to collect from a

5
withdrawing employer its ‘proportionate share of the plan’s
“unfunded vested benefits.”’ Pension Benefit Guaranty
Corp. v. R.A. Gray & Co., 467 U.S. 717, 725 (1984) This
assessment begins with the plan sponsor issuing a notice
and demand for payment of the withdrawal liability to
the employer as soon as “practicable after an employer’s
complete or partial withdrawal.” 29 U.S.C. § 1399(b)(1).
Within 90 days of the notice, the employer may ask
the plan sponsor to review the assessment. Id. at § 1399(b)
(2). Thereafter, any dispute between the employer and
the plan sponsor as to the determination of withdrawal
liability must be resolved through arbitration. The
arbitration proceedings must be initiated within 60 days
of the plan sponsor’s disposition of a request for review
or 120 days of the employer’s request for review. Id. at
§ 1401(a)(1). If arbitration is not initiated, the amounts
demanded by the plan sponsor become due and payable
and the plan sponsor can bring an action for collection. Id.
at § 1401(b)(1) Liability extends to all trades and business
which are under the common control with the employer.
29 U.S.C. § 1301(b) (1).
B. The Trustees’ Notice To Petitioners
The Trustees issued their Notice of Withdrawal
Liaibility to T&W Corp and E Company on April 30,
2015. (Dkt. # 48-1, Pl. Ex. 3 at 51)1 This was two years
after the companies’ last contributions to the Pension
Fund. (Dkt # 48 at ¶ 34) Several important things had
occurred during this interim. The corporations had gone
1. Citations are to the record in the District Court by the
docket number assigned to the documents.

6
out of business, been dissolved and their assets liquidated.
The Trustees had also sued each of the corporations for
monthly contributions in 2014, seeking in each suit to hold
one of Edmiers jointly liable as an officer/owner, because
the corporations had been dissolved or were no longer in
good standing.
The Notice of Withdrawal Liability was mailed to
the Edmier Corp., a dormant company which had never
contributed to the Pension Fund, as well as to T&W
Corp. and the E-Company. (Dkt # 48-1, Pl. Ex. 3 at 51)
In addition, the Notice was also mailed to the former
registered agent for T&W Corp. and The E Company (Id.),
an attorney who subsequently represented Petitioners
when the matter reached the Courts. The Notice was
directed to only the corporations; none of the Edmiers
were identified as someone who might be personally liable
for the withdrawal liability. (Id.)
The only reference to control group liability in the
Trustees’ Notice was:
This withdrawal liability is based only on
the contributions made to T & W Edmier
Corporation and The E Company. If there are
other companies under common control with T
& W Edmier Corporation and The E Company,
and if those companies have also contributed
to the Pension Fund, then the contribution
history of those companies should be considered
in calculating withdrawal liability. This has
not been done for purposes of this calculation
because the Pension Fund does not know what
other employers, if any, should be aggregated

7
with T & W Corporation and The E Company
for purposes of withdrawal liability. (Emphasis
Added) (Dkt. 48-1, Pl. Ex. 3 at 52)
The Notice did not set forth of any of the procedures
and deadlines under ERISA for perfecting an objection,
such as the right to seek a review within 60 days, the right
to seek arbitration within 120 days or that a failure to seek
arbitration resulted in forfeiture of any of rights to contest
liability. Rather, it directed the recipients to “ERISA
Section 4219 and 4221” for a description of the “rights
that you may have in connection with this assessment of
withdrawal liability.” (Dkt. # 48-1, Pl. Ex. 3 at 52)
Although the Edmiers admitted seeing the Notice of
Withdrawal Liability, they did not respond to it, allowing
the assessment of liability against T&W Corp and the
E Company to go unchallenged without a review or
arbitration under ERISA.
C. The Proceeding Below
On November 15, 2015, the Trustees filed an initial
Complaint in the District Court, seeking its enforce its
claim for withdrawal liability only against The E Company,
T&W Corp. and the Edmier Company. Eight months later,
on July 28, 2016, the Trustees amended their Complaint
to add Thomas Edmier individually and K. Edmier &
Sons as part of the “Edmier Control Group.” (Dkt. # 20
at ¶ 2-3) William Edmier and the remaining Petitioners
were subsequently added to the suit as members of the
Edmier Control Group under another amendment, a year
later, on August 11, 2017. (Dkt. # 54 at ¶ 10)

8
The Trustees immediately moved for Summary
Judgment against all Petitioners, after the last of the
Complaint. (Dkt. # 47) They submitted that they had met
“all the requirements under the law to give notice to the
Edmier Defendants,” since “notice to one employer within
the control group is notice to all members of the control
group.” (Dkt. # 49 at 5) As a result, they maintained that,
all the “Edmier Defendants” had “incurred withdrawal
liability” and “waived” any defenses by not requesting
arbitration. (Id.)
The Petitioners argued that due process required that
the Trustees serve the Notice of Withdrawal Liability
on William and Thomas Edmier personally rather than
by constructive notice. Petitioners pointed out that the
identities of the Edmiers were known to the Trustees
as a result of the 2014 suits brought by the Trustees to
collect the monthly contributions or could have been easily
ascertained from the records of the Illinois Secretary
of State. (Dkt. # 92 at 3-4) They also argued that the
withdrawal notice was defective because it misstated the
standards for vicarious liability under ERISA and failed
to provide them with sufficient information make a timely
appearance and objection under ERISA’s procedures.
(Id. at 4-7) Petitioners submitted that Mullane v. Central
Hanover Bank &Trust Co., 339 U.S. 386 (1950) established
the constitutional standards supporting both of these
objections. (Id. at 2)
The Trustees maintained that the controlling
authority was the Seventh Circuit’s decision in Central
States S.E.& S.W. Area Pension Fund v. Slotky, 956 F.2d
1369, 1371 (7th Cir. 1992), in which constructive service
had been sustained under ERISA. The Trustees also

9
argued that in addition to T&W Corp. and E Company, the
Notice had been sent to their registered agent/attorney,
who was obliged to explain control group liability to the
Edmiers and the importance of preserving their defenses
in arbitration. (Dkt. # 95 at 1-2)
The District Court granted the Fund’s Motion for
Summary Judgment. It found that the explanation
of “common control” in the Trustees’ Notice was not
misleading, because it did not speak “one way or another
to the issue” of joint and several liability of other
companies under common control with T&W Corp and
The E Company, but only indicated that the calculation of
withdrawal liability might change, if other companies had
contributed. (App. Ex. C at 26a, n.3) It observed that the
objection “rings hollow in light of the fact that defendants’
attorney received the notice and could have explained it.
(Id. at 27a, n.4)
The District Court held that Mullane was inapplicable
because it involved “pre-ERISA Supreme Court law” and
that “the principles in Slotky account for procedural due
process concerns and constitutes the governing law in the
area.” (App. Ex. C at 27a-28a, n. 5) It found that Slotky
addressed ‘notice and fairness concerns regarding “people
who had absolute no reason to believe that they might
be deemed members of a control group” and that “the
requirements of due process [we]re met” in that case.’ (Id.)
Never theless, the Distr ict Cour t went on to
affirmatively find that “all but one of the defendants are
members of a controlled group with one of the withdrawing
employer defendants. (App. Ex. C. at 28, n.5) It concluded
that, “This finding eliminates any concern with the lack
of notice provided to these defendants.” (Id.)

10
The Seventh Circuit that held that the District Court
had correctly applied Slotky, which it characterized as “a
narrow exception to the general rule” that a party charged
with withdrawal liability forfeits its defenses by failing to
arbitrate them, when the party “had absolutely no reason
to believe they might be deemed to be a member of control
group.” (App. Ex. A. at 4a) “Relying on this framework,”
the Seventh Circuit found that the District Court had
concluded that none of the Petitioners “had such a credible
claim of surprise (at being a member of a control group)
to sidestep ERISA’s arbitration requirement.” (Id. at
5a) It pointed out that “the district court went further
and determined as factual matter that each of these
defendants was a trade or business under common control
with another party who received the notice of withdrawal
liability.” (Id.)
Without citation or explanation, the Court of Appeals
held that the standards announced in Mullane for notice
under the Due Process Clause are limited to service of
process in lawsuits. (App. Ex. A at 6a) It found Petitioners’
reliance on Mullane misplaced, stating, “In no way, shape
or form did any due process violation occur here,” because
“the defendants who received – but chose to ignore – the
notice . . . had every opportunity to arbitrate” and “as
for the defendants who did not receive the notice . . . the
district court provided them a full and fair opportunity to
litigate their liability as members of the control group . . . .
(Id. at 6a-7a)
REASONS FOR GRANTING THE PETITION
A review of this case is warranted because it
demonstrates the unprecedented departures from the
constitutional standards governing notice under the Due

11
Process Clause in which the Seventh Circuit has engaged.
Although this Court has applied Mullane v. Central
Hanover Bank & Trust Co., 399 U.S. 306 (1950) repeatedly
over the last seventy years, the Court of Appeals has
broken with these precedents, endangering the procedural
protections recognized by the Court in in several ways.
First, contrary to the language of Mullane and
the actual decisions of this Court in several cases, the
Seventh Circuit found that the established protections
of the Due Process Clause recognized in Mullane are
limited to service in law suits. The Court of Appeals
neither cited any authority nor provided any rationale for
its conclusion. Petitioners’ own canvass of cases declining
to apply Mallane has not revealed any precedent for the
Seventh Circuit’s holding. Thus, even though the Trustees’
collection suit can properly be regarded as a continuation
of the process which they instituted with their Notice of
Withdraw Liability, neither the efficacy of the contents of
that Notice nor the use of constructive service to notify
persons who were known or reasonably ascertainable were
reviewed under the Seventh Circuit’s novel limitation.
Second, the decision of Court of Appeals in Central
States S.E. & S.W. Area Pension Fund v. Slotky, 956 F.2d
1369, 1373 (7th Cir. 1992), promulgated a subjective test
which invites courts to divine whether defendants “ had
absolutely no reason to believe that they might be deemed
members of control group.” This is an inappropriate
substitute for the Mallane test, which balances the
rights of persons under the Due Process Clause against
governmental interests. Under this balancing test,
the Courts to focused on such objective factors as
the effectiveness of the notice and the burden on the

12
governmental purpose of the proceedings under the
circumstances. 399 U.S. at 313-15. Further, the Slotky
decision shifts the burden of proof to the recipient of
the notice, undermining the duty of the government or a
person or entity acting on its behalf which initiated the
notice to adopt reasonable means designed to accomplish
the purpose of informing the recipient of the risk of the
loss of his property. (Id. at 315)
Third, the Court of Appeals found Petitioners had
suffered no harm because the District Court had reviewed
their membership in the alleged control group. This
holding clashes with the standard of review applied by
this Court in Peralta v. Heights Medical Center, 485 U.S.
80 (1988), which recognized that a judgment obtained
by improper service in violation of due process under
Mullane voids the judgment, regardless of whether the
defendant can show a meritorious defense.
These departures from this Court’s precedent are
so numerous and so radically different from the existing
principles of procedural due process established by this
Court as to warrant review.
I.

THE DECISION BELOW CONFLICTS WITH
MULLANE AND OTHER AUTHORITY OF THIS
COURT BASED ON ITS CONSTITUTIONAL
STANDARDS

In Mullane, this Court announce the basic standard
for notice under the Due Process Clause:
An elementary and fundamental requirement
of due process is in any proceeding which is

13
to be accorded finality is notice reasonably
calculated, under all the circumstances, to
apprise interested parties of the pendency of
the action and afford them an opportunity to
present their objections . . . The notice must
be such a nature as reasonably convey the
required information . . . and it must afford a
reasonable time for those interested to make
their appearance. 339 U.S. at 314 (Citations
Omitted) (Emphasis Added)
The phrase “in any proceeding which is to be accorded
finality” negates the idea that the required notice is limited
to service in a court proceeding. If the Court had been
concerned with only court proceedings, it could have said
so. Instead, its language indicates that it was concerned
with causation and addressing any matter in which there
was likely to be a default and of loss of property from a
lack of notice or ineffective notice.
If there is any doubt that as to whether the Mullane
standard is confined to notice in court proceeding, it is
certainly resolved by the subsequent decisions of this
Court. For instance, Memphis Light, Gas and Water
Division v. Craft, 436 U.S. 1 (1978) involved nothing more
than a final notice by a municipally owned, utility to a
customer that her service would be cut off, if she did not
pay her bill. The Supreme Court found the notice defective
under Mullane. Id. at 14. The notice was challenged in
a civil rights suit by the customer, collaterally from any
collection proceeding instituted by the municipality.
Similarly, Mennonite Board of Missions v. Adams,
462 U.S. 791 (1983) involved the failure of the county

14
governmental to provide notice of tax sale to the
mortgagee of the property. While a notice had been
sent to the property owner, the Court found notice to
him, as well as notice by publication or posting, were not
reasonably calculated to be effective when the mortgagee
is known or reasonably ascertainable. Id. at 795-99. The
tax sale occurred in a separate proceeding conducted
independently from the law suit in which the notice issue
was resolved, a suit to quiet title brought by the purchaser
of the taxes. Id. at 793-95.
Jones v. Flowers, 547 U.S. 220 (2006), also involved
a tax sale. The certified letters apprising the owner of
the property of the sale were returned and after the sale
occurred, the issue of the sufficiency of the notice was
raised in a subsequent suit by the owner. Id at 223-25. The
Court found that failure of the government to pursue other
efforts to provide notice transgressed Mullane. Id. at 229.
Perhaps the most compelling example is Tulsa
Professional Collection Services v. Pope, 485 U.S. 476
(1988). It involved a notice under a non-claim statute in
a probate proceeding. The notice was intended to advise
creditors of the deadline for filing their claims and its
purpose was administrative; it did not necessarily lead
to litigation if the creditor filed, but a failure to file
automatically barred the claim. Id. at 479-81. Citing
Mennonite and Memphis, Light Gas and Water, this
Court found, ‘It is not necessary for a proceeding to
directly adjudicate the merits of a claim in order to
‘“adversely affect” a protected property interest.’ Id.
at 488. Accordingly, the Court remanded the case to
determine if the creditor was known or reasonably
ascertainable and constructive therefore prohibited under
Mullane. Id. at 489

15
As these examples illustrate, Mullane’s standards
are applicable to proceedings other than those involving
service in law suits. Because of the failure of the employer
to meet the arbitration deadline is fatal to defenses
and establishes withdrawal liability, the assessment
proceeding initiated by a notice of withdrawal liability
are designed to be “accorded finality.”
The Seventh Circuit offered no rational or explanation
for its conclusion that Mullane was limited judicial
proceedings. It is difficult to conceive one, since the same
constitutional concerns with respect to deprivations of life,
liberty and property without notice in judicial proceedings
obviously pertains to the deprivations of those rights
in less august proceeding which serve governmental
interests, such as paying governmental fees, fines and
assessments, complying with administration deadlines
or mandatory arbitrations of property rights as required
under as ERISA.
The Seventh Circuit appears to have maintained
doubts about the legitimacy of Petitioner’s objections,
apparently believing Petitioners were hypercritical of
ERISA’s provisions. 2 Because of this implication and
because its ruling necessarily foreclosed review of
2. The Court of Appeals described Petitioners’ objections: “In
their view, the Supreme Court’s decision in Mullane . . . required
the Pension Fund to serve notice . . . each of them and to explain
the standard for control group liability in the notice.” (App. A.
at 6a) It treated objections as attack on the Statute, rather than
procedural due process objections, proclaiming that: “No reading
of Mullane . . . supports the view that ERISA’s controlled group
liability provisions and accompanying procedural framework . . .
violate due process.” (Id. at 6a)

16
their objections, Petitioners shall point out this Court’s
precedents supporting their due process claims.
To beg in w ith, Mullane specif ically sets the
constitutional standard for the contents of a notice when
it declared:
The notice must be of such nature as reasonably
to convey the required information . . . and
must afford a reasonable time for those
interested to make their appearance. 339 U.S.
at 314. (Emphasis Added)
And, as pointed out in Memphis Light, Gas and Water
Division v. Craft, 436 U.S. 1, 13-14 (1978), the notice must
provide a person with more information than statement
that a payment is overdue and the action which will be
taken if payment is not made. The information must suffice
“to apprise the affected individual of and permit adequate
preparation for an impeding hearing.” Id. at 14.
The Seventh Circuit’s own precedent noted that the
metes and bounds of “common control” under ERISA is
not intuitive. See Central States Southeast Pension Fund
v. Personnel, Inc., 974 F.2d 789, 792-94 (7th Cir. 1992) It
is reasonable to conclude, therefore, that the required
information to afford a recipient of a Notice of Withdrawal
Liability would include some explanation of control group
liability. Such information is necessary for the recipient’s
understanding of their risk losing their property and
preparation for a hearing.
Furthermore, the whole concept that notice to one
member is notice to all members upon which constructive

17
service under ERISA is predicated on is the belief that
those who received the notice would know enough to pass
it on to those who were not given notice. The importance of
the contents of a notice of withdrawal liability is heighten,
therefore, by the fact that the notice is the vehicle by
which unnamed defendants are informed of their risk of
vicarious liability.
The Notice which the Trustee sent to T&W Corp.,
the E Company and Edmier Corp. did not contain any
information to let them know that other persons or entities
were at risk. Rather, it was misleading in stating that
“if other companies have also contributed to the Pension
Fund, then the contribution history of those companies
should also be considered in calculating withdrawal
liability.” This language could be reasonably read and
was read by the Edmiers to mean a the control group
consists of “other corporations that also contributed to
the PensionFund.” (Kevin Edmier Dep. at 21.2-12; Dkt.
# 43-3; See, also William Edmier Dep. 13.2-14,14.6-22 ;
Dkt. # 48-3)
The Seventh Circuit ignored the issue, apparently
satisfied that a description of control group liability was
not constitutional required or that the District Court had
not found the Trustees’ Notice misleading. The District
Court construed Notice simply to mean that “withdrawal
liability might change based on the contribution history
of other companies under common control.” (App. Ex. C.
at 26a, n.3) The problem with this construction is that it
divorces the language of the Notice from: (i) T&W Corp.’s
and the E Company’s actual relationship with the Pension
Fund, (ii) from the purpose of the Statute and (iii) from
the description of joint and several liability in the Statute.

18
The Fund’s Administrator admitted that the only
defendants to have contributed the Fund were T&W Corp.
and the E Company. (Colin Dep. 21.3-14; Dkt. # 48-2)
Since it was reasonable to assume the language served a
purpose or it would not have been included in the letter if
it did not, it was reasonable and natural for the Edmiers to
believe that it the outlined liability under ERISA. Further,
as pointed out in this Court’s decision in Pension Benefit
Guaranty Corp. v. R.A. Gray & Co., 467 U.S. 717, 725
(1984), the purpose of withdrawal liability is to capture
the plan’s “unfounded vested benefits,” calculated as the
difference between the present value of vested benefits
and the current value of the plan’s assets.’ By definition,
therefore, only the contribution history of T&W Corp.
and The E-Company was relevant to that liability, even
if they received money from other sources to cover those
contributions, since employer’s portion of the unfounded
vested benefits covered employees remains the same.
The Statute itself provides that “all employees of
trades or businesses (whether or not incorporated) which
are under common control shall be treated as employed by
a single employer and all such trades and businesses as a
single employer.” 29 U.S.C. § 1301(b)(1). If the Trustees
had advised the Edmiers that liability extended to all
“trades and businesses” which were under common control
or that “all such trades and businesses” were regarded
as “a single employer,” they could have understood that
liability didn’t just extend to “other corporations” that
had contributed to the Fund.
The District of Columbia Circuit’s opinion in Connors
v. Incoal, Inc., 995 F.2d 245, 247 (D.C. Cir 1993), illustrates
how easily the Trustees could have avoided the misleading

19
nature of the Notice. In Connors, the Notice specifically
provided that “all members of a commonly-controlled group
of trades and businesses are jointly and severally liable”
for the payment of the withdrawal liability. Id. at 247.
The Trustees were also not forthcoming in advising
the Petitioners with such necessary information as their
rights to review and arbitration of the assessment of
withdraw liability, the deadlines for exercising those
remedies or the forfeiture of their defenses, if they failed
to arbitrate. The Notice only directed them to “ERISA
Sections 4219 and 4221” for a description of “the rights
you may have.” The reference to Sections 4219 and 4221 is
to the provisions as they appeared in the bill in Congress
which was introduced to amend of ERISA, rather than the
provisions of the United States Code. One had to find the
provisions in the original bill and trace them to the Code
to ascertain one’s rights. Both the District Court and the
Seventh Circuit ignored this impediment even though it
shows that the Trustees, especially when coupled with
their failure to explain the joint and several of trades
and businesses under common control, were not truly
“desirous of actually informing” the recipients of this
necessary information. Mullane, 339 U.S. at 315.
The identities of the Edmiers were known to the
Trustees from the suits in which they sought to recover
monthly contributions from them. Their identities could
also be ascertained from the records of the Illinois
Secretary of State. Mullane and its progeny hold that
under such circumstances one cannot rely on theories of
constructive notice. 399 U.S. at 318. See, also, Walker v.
City of Hutchison, 352 U.S. 112, 116-17 (1956); Schroder
v. City of New York, 371 U.S. 208, 210-13 (1962); Greene

20
v. Lindsey, 456 U.S. 444, 450-54 (1982); Mennonite Board
of Missions v. Adams, 462 U.S. 791, 798-99 (1983); Tulsa
Professional Collection Services, Inc. v. Pope, 485 U.S.
478, 489-90 (1988). These decisions have repeatedly
emphasized that constructive services is not reasonably
calculated to reach those individual who can be informed
directly. The Seventh Circuit’s disposition of this matter,
irreconcilably conflicts with this string of decisions by
this Court.
II. THE SEVENTH CIRCUIT’S DECISION IN
SLOTKY RELIED ON BELOW UNDERCUTS THE
CONSTITUTIONAL STANDARDS ESTABLISHED
BY MULLANE
Mullane sets forth an analytical framework in which
“where the interest of the State is balanced against the
individual interest sought to be protected” by the Due
Process Clause under “all circumstances of the case.”
339 U.S. at 314. See, also, Jones v. Flowers, 547 U.S. 220,
229 (2006); Tulsa Professional Collection Service, Inc.
v. Pope, 485 U.S. 478, 484 (1988). This Court recognized
that due process required the government, or a party
acting on its behalf, to warn of defendant of the risk of a
loss of life, liberty or property in proceeding brought by
them. 339 U.S. at 314-15. In subsequent cases the Court
has expanded this duty beyond simply the initiation of a
proceeding to subsequent circumstances where it is known
the original notice did not reach the intended recipient or
is unlikely to reach them. See, Jones v. Flowers, 547 U.S.
220, 238 (2006) and Greene v. Linsey, 456 U.S. 444, 45054 (1982). In requiring that the warning be “reasonably
calculated . . . to appraise interested parties of the
pendency of the action and afford them an opportunity to

21
present their objections,” this Court established a test for
the assessment of the effectiveness of the notice, which
focused on such objective factors such as the method of
service and the contents of the notice. These factors were
balanced against the purported burden which the notice
imposed on the governmental interest in the proceeding.
The Slotky decision, which the District Court
concluded governed Petitioners’ due process objections, is
a radical and flawed substitute for the Mullane standard.
It ignores or minimizes the government’s duty under
the Due Process Clause and departs from this Court’s
balancing test and concerns about the effectiveness of
service and the contents of the notice. Instead, Slotsky
promulgates a subjective test, coupled with extreme
evidentiary standard – “absolutely no reason to believe
they might be deemed members of a control group.” 653
F.3d at 1373. The unfairness of this subjective standard
is obvious, since it invites speculation about a defendant’s
collateral knowledge or information about the proceedings
and risk of deprivation. Consequently, the efficacy of
the notice is no longer of a central concern, if any, under
Slotky.
The District Court’s decision in this case provides
an illustration of these flaws. It specifically noted that
Slotky provided no test for the determination of the
ineffectiveness of a notice other than the notion that the
purported control group member must be as clueless an
unsuspecting Easter Bunny (App. Ex. C. at 25a). The
District Court further noted that:
Even if not named in the notice, the Slotky
court explained that “the statutory policy of
encouraging prompt nonjudicial resolution of

22
disputes” might require any defendant who
“should know that he might very well be deemed
a member of a control group” “to institute
arbitration on penalty of losing all opportunity
to contest his membership.” 956 F.3d at 1373
(App. Ex. C. at 26a)
The District Court therefore concluded that certain
petitioners “might be deemed to have been on constructive
notice of potential liability and to waived any control group
membership defense,” because it was sent to the principal
place of business that they had shared with T&W Corp.
and E Company. (App. Ex. C. at 26a) It further concluded
that the fact the former attorney/registered agent had
received the notice “could support the conclusion that all
the defendants should have been alerted to their potential
liability” because he could have explained the notice to
them. (Id. at 26a-27a)3
This invitation for speculation is compounded by
Slotky’s departure from the balancing test of Mullane
and consideration of only the government’s interest in
3. Speculation as to such subjective matters such as
credibility, knowledge or intent is insidious and inappropriate for
summary judgment. E.g., Reeves v. Sanderson Plumbing Products,
Inc., 500 U.S. 133, 150 (2000); Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 255 (1986); Matsushita Electric Industrial Co. v. Zenith
Radio Corp., 475 U.S. 574, 596 (1986). It was particularly harmful
here, since the Edmiers unrebutted deposition testimony was that
they were misled by the Trustee’s Notice. Furthermore, the only
duty of the attorney/agent after the dissolution of T&W Corp.
and E-Company was his duty as the registered agent to forward
the notice to their former owners. There is no evidence he ever
consulted with them about the Notice and it cannot be assumed
that he had any knowledge its content was wrong before this suit.

23
“encouraging prompt nonjudicial resolutions of disputes.”
Under the balancing test a court was required to weigh
the efficacy of the notice used by the governmental against
feasibility of alternatives. If the impact of the alternative
notice is not so great to unduly hinder the governmental
interest then the alternative will be sustained. For
example, this was precisely the balance which was struck
in Tulsa Professional Collection Service, supra, 485 U.S.
at 490, when it was argued personal notice under the nonclaim statute would hinder probate proceedings.
The governmental interest in “encouraging prompt
nonjudicial resolutions of disputes” is no different. Nor
is the inclusion of an accurate description of joint and
several liability under ERISA or a direct and transparent
disclosure of ones rights to review and arbitration under
the Statute. All that was required was a little care and
some minor modification of the Trustees’ letter. See,
Connors v. Incoal, Inc. supra, 995 F.2d at 247. It would not
have hindered a resolution of withdrawal liability during
a review or through in arbitration to advise the Edmiers
of their risk of liability or their rights under ERISA. If
anything, such notice would have contributed to possibility
of a non-judicial resolution and expedited the ultimate
disposition of the Trustee’s claim.
In promulgating its decision in Slotky, the Seventh
Circuit did not pause to balance the government’s interest
against the individual interest sought to be protected
by the Due Process Clause. It focus solely on protecting
the government’s interest. Nevertheless, it had the
opportunity to correct this omission in this case and
neglect to do so, even though Petitioners argued the same
decisions of this Court which they argue in this Petition.

24
Instead, the Seventh Circuit approved the District Court’s
adoption of the Slotky and its conclusion that Slotky set
the due process standard.
The Slotky decision departs from the constitutional
precedents of this Court and presents a continuing source
of confusion within the Seventh Circuit, if not elsewhere,
of the principles procedural due process.
III. T H E S E V E N T H C I R C U I T ’ S R E V I E W
CONFLICTS WITH THIS COURT’S HOLDING
IN PERALTA
The Seventh Circuit held that Petitioners suffered
no harm because the District Court had “determined as
factual matter that each of these defendants was a trade
or business under common control with another party who
received the notice of withdrawal liability.” (App. A at 5a)
It reasoned that any defect in the efficacy of service or
the contents of the Trustee’s Notice was obviated by this
review on the merits. This approach ignores the primacy
of notice in accordance with the Due Process Clause in our
system of justice and conflicts with this Court’s decision
in Peralta v. Heights Medical Center, 485 U.S. 80 (1988).
Peralta involved the denial of a petition to review a
default judgment which the defendant had sought to set
aside because of invalid service. The petition was denied
because defendant had not shown a meritorious defense as
required by Texas law. This Court held that invalid service
violates the Due Process Clause and voids a judgment,
regardless of whether defendant could show a meritorious
defense. It rejected the notion that a defendant had
suffered no harm in the absence of meritorious defense,
pointing out that a judgment has serious consequences and

25
if notified of suit, a defendant has the options of selling
property, working out a settlement or simply paying
the debt. 485 U.S. at 85. This Court specifically invoked
Mullane and quoted its due process standard in reaching
its decision. Id, at 84. It held that “wiping the slate clean”
was the only effective means of restoring the defendant
“to the position he would have occupied if due process of
law had been accorded him in the first place.” Id. at 87.
The teachings of Peralta are applicable in this suit.
The Trustee delayed issuing their Notice of Withdrawal
for two years after T&W Corp and E Company stopped
contributing to the Pension Fund, despite the fact that
ERISA directs plan sponsors to issue notices as soon
as “practicable after an employer’s complete or partial
withdrawal. 29 U.S.C. §1399(b) (1). During this two year
delay the Edmiers personally spent over $650,000 to cover
obligations of T&W Corp. and E Company in an attempt
to salvage the corporations. (Dkt. # 48-2 at 23) The
Edmiers believe that the Trustees’ delay in issuing the
Notice was unreasonable, if not intentional. The Edmiers
could have avoided spending a substantial portion of the
$650,000 had the Notice been issued within a reasonable
time after the corporations had ceased contributing to the
Pension Fund. The District Court’s review of merits of the
Trustee’s control group allegations does not address this
injury, since under Slotky the District Court’s authority
is limited to adjudication of control group membership,
not the Trustees’ general administration of withdrawal
liability. 956 F.2d at 1373.
Even ignoring the Trustees’ delay, the failure to
accord Petitioners due process led to the kind of injuries
noted in Peralta. As pointed out previously, the Edmiers’
identities were known to the Trustee or could have been

26
easily ascertained by them. Nothing would have been
more likely to catch the Edmier’s attention than seeing
their names on the Notice. See, Mullane, 339 U.S. at 315.
Likewise, clear and meaningful description of control
group liability and a direct and transparent statement
one’s rights to review and arbitration under are ERISA
are not burdensome tasks and are likely to compel the
Edmiers to exercise their rights review and/or arbitration.
Once in review or arbitration, the Edmier might reach a
settlement or knowingly chose to default. Such a default
would have saved the Edmiers as much as $ 219.000 of
interest, penalties and attorney fees which were assessed
by the District Court. (App. Ex. B at 10a-11a)
As in Peralta, this Court should repudiate the
harmless error rule as a justification for the failure of
a court to set aside judgment secured by invalid notice
under the Due Process Clause.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
Merle L. Royce II, Esq.
Counsel of Record
135 South LaSalle Street,
Suite 4000
Chicago, Illinois 60603
(312) 553-1233
royce4law@gmail.com

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED JANUARY 29, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-2273
TRUSTEES OF THE SUBURBAN TEAMSTERS
OF NORTHERN ILLINOIS PENSION FUND,
Plaintiff-Appellee,
v.
THE E COMPANY, A DISSOLVED
ILLINOIS CORPORATION, et al.,
Defendants-Appellants.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:15-cv-10323 — Thomas M. Durkin, Judge.
January 18, 2019, Argued
January 29, 2019, Decided
B e fo r e E A S T ER BR O OK , B A R R E T T, a n d
SCUDDER, Circuit Judges.
SCUDDER, Circuit Judge. Under the terms of
a collective bargaining ag reement, T&W Edmier

2a
Appendix A
Corporation regularly contributed on behalf of its
employees to the Suburban Teamsters of Northern Illinois
Pension Fund. But in 2014 T&W ceased operations and cut
off its pension contributions, prompting the Pension Fund
to assess withdrawal liability of $640,900. The Pension
Fund sought to collect payment by mailing a notice of the
withdrawal liability to T&W and several affiliated entities,
only to see their collection efforts ignored. The Trustees of
the Pension Fund eventually sued to collect payment, and
that action culminated in the district court ordering T&W,
along with several other individuals and entities under
common control, to pay the withdrawal liability. Now
seeking to vacate the district court’s judgment, T&W and
the other defendants argue that their due process rights
were violated when the Pension Fund initiated collection
of the withdrawal liability by mailing notice to some but
not all of them. Seeing no error, we affirm.
I
T&W Edmier Corporation operated a construction
business in tandem with The E Company. T&W owned
the construction equipment while The E Company hired
and provided employees. Brothers Thomas and William
Edmier each owned 50% of T&W. Kevin Edmier, William’s
son, owned and operated The E Company. Pursuant to
the terms of a collective bargaining agreement with its
employees, T&W participated in the Suburban Teamsters
of Northern Illinois multi-employer pension plan, and,
for its part, The E Company agreed to assume joint and
several liability for T&W’s obligations to the Pension
Fund. In 2014, however, T&W and The E Company ceased
operations, dissolved, and withdrew from the plan.

3a
Appendix A
The Multiemployer Pension Plan Amendments to
the Employee Retirement Income Security Act require
a covered plan to assess withdrawal liability against a
withdrawing employer. See 29 U.S.C. § 1396. Withdrawal
liability, as its name implies, is designed to prevent
shifting the financial burden of employees’ vested pension
benefits to other employers in the multi-employer plan.
We explained these principles at some length in Central
States, Southeast and Southwest Areas Pension Fund v.
Slotky, 956 F.2d 1369, 1371-72 (7th Cir. 1992).
Consistent with ERISA’s mandate, the Pension Fund
mailed a notice of withdrawal liability on April 30, 2015,
a past due notice on August 17, 2015, and a default and
acceleration notice on November 12, 2015. The notice went
to T&W, The E Company, and the Edmier Corporation
(another entity wholly owned by Thomas Edmier). Even
more specifically, the Pension Fund sent the notice to the
attention of Thomas, William, and Kevin Edmier, as well
as attorney George Grumley, the registered agent of both
T&W and The E Company. At their depositions, Thomas,
William, and Kevin Edmier acknowledged receiving the
notice.
The Pension Fund’s notices went unanswered and, as
a result, the Pension Fund’s Trustees initiated a lawsuit in
the district court. Ignoring the Pension Fund’s requests
for payment had significant legal consequences for the
defendants. Congress has required that all disputes over
withdrawal liability be resolved through arbitration,
see 29 U.S.C. § 1401(a)(1), and an employer’s failure to
arbitrate means “the plan can then immediately file suit

4a
Appendix A
to collect the entire amount of withdrawal liability, and
in that proceeding the employer will have forfeited any
defenses it could have presented to the arbitrator,” Nat’l
Shopmen Pension Fund v. DISA Industries, Inc., 653
F.3d 573, 579 (7th Cir. 2011).
Our case law has recognized a narrow exception
to this general rule of forfeiture for a party who “had
absolutely no reason to believe that they might be deemed
members of a controlled group” but is nonetheless sued
and alleged to be liable for another party’s withdrawal
liability based on ERISA’s “controlled group” provision.
See Slotky, 956 F.2d at 1373. The controlled group
provision imputes liability to all “trades or businesses”
under “common control” with another party who is liable
for the withdrawal liability. See 29 U.S.C. § 1301(b)(1).
And our decision in Slotky allows unsuspecting defendants
who are sued in district court but had no idea they might
be liable as members of a controlled group to litigate that
question—membership in a controlled group. See 956
F.2d at 1373.
Relying on this framework, the district court concluded
that T&W, The E Company, and the Edmier Corporation
had forfeited all defenses to liability, including the defense
that they were not members of a controlled group, by
failing to arbitrate after receiving the Pension Fund’s
notice of withdrawal liability. This outcome reflected
a straightforward application of these defendants not
complying with the clear arbitration mandate in 29 U.S.C.
§ 1301(b)(1).

5a
Appendix A
As for each of the other defendants (Thomas, William,
and Kevin Edmier; K. Edmier & Sons LLC; The William
Edmier Trust; Lake Street Realty, Inc.; and E&E
Equipment & Leasing), the district court explained that
they too had likely forfeited all defenses as they were
not the type of unsuspecting defendant contemplated
in Slotky. Put differently, the district court reasoned
that none of these defendants had such a credible claim
of surprise (at being a member of a controlled group) to
sidestep ERISA’s arbitration requirement. Regardless,
the district court went further and determined as a
factual matter that each of these defendants was a trade
or business under common control with another party who
received the notice of withdrawal liability. This reasoning
finds strong support in the record and resulted in the
district court concluding that each of these defendants
was liable under ERISA’s controlled group provision.
In the end, the district court entered summary
judgment for the Pension Fund’s Trustees and ordered
the defendants to pay the full $640,900 of withdrawal
liability, plus interest, liquidated damages, attorneys’
fees, and costs. As members of a controlled group, each
of the defendants became jointly and severally liable for
payment. See Central States, Southeast and Southwest
Areas Pension Fund v. Koder, 969 F.2d 451, 452 (7th Cir.
1992) (citing 29 U.S.C. § 1301(b)(1)).
II
The defendants challenge the district court’s judgment
by arguing that the Pension Fund’s notice of withdrawal

6a
Appendix A
liability violated the Fifth Amendment’s Due Process
Clause. In their view, the Supreme Court’s decision in
Mullane v. Central Hanover Bank & Trust Co., 339
U.S. 306, 70 S. Ct. 652, 94 L. Ed. 865 (1950) required the
Pension Fund to serve the notice of withdrawal liability
on each of them and to explain the standard for controlled
group liability under ERISA in the notice. This contention
misses the mark.
The defendants’ reliance on Mullane is misplaced
because all parties agree that judicial proceedings
commenced in the district court with proper service
of process (notice of the complaint) to each defendant.
The due process standard announced in Mullane—a
decision requiring sufficient notice of a pending judicial
proceeding—was therefore satisfied. No reading of
Mullane, however, supports the view that ERISA’s
controlled group liability provisions and accompanying
procedural framework (in which a defendant forfeits
certain defenses by failing to arbitrate) violate due
process.
A related observation is in order. The defendants
colloquially and imprecisely allege a violation of due
process, time and again citing Mullane. In no way,
shape, or form did any due process violation occur here.
The defendants who received—but chose to ignore—the
notice of withdrawal liability had every opportunity to
arbitrate and yet failed to do so, resulting, by operation of
ERISA, in a waiver of all defenses to withdrawal liability.
No unfairness inheres in that outcome. And, as for the
defendants who did not receive the notice of withdrawal

7a
Appendix A
liability but nonetheless found themselves named in a
federal lawsuit, the district court provided them a full and
fair opportunity to litigate their liability as members of a
controlled group. Nothing about the path those defendants
traveled offends due process.
For these reasons, we AFFIRM.

8a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION
FILED MAY 9, 2018
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 15 C 10323
TRUSTEES OF THE SUBURBAN TEAMSTERS
OF NORTHERN ILLINOIS PENSION FUND,
Plaintiffs,
v.
THE E COMPANY, et al.,
Defendants.
Judge Thomas M. Durkin
Order
For the reasons explained below and as further set
forth in the separate Order of Judgment, this Court
grants plaintiff Trustees of the Suburban Teamsters of
Northern Illinois Pension Fund’s (“the Fund’s”) motion
for attorney’s fees [99] and awards the Fund a judgment
in the amount of $858,319.52.

9a
Appendix B
Background
On March 22, 2018, this Court granted the Fund’s
motion for summary judgment (R. 47) and instructed the
Fund to file a petition setting forth its claimed interest,
liquidated damages, attorneys’ fees, and costs, along with
a proposed order, on or before April 20, 2018. R. 98 at 7. On
April 20, 2018, the Fund filed a motion for attorneys’ fees
(R. 99) along with a memorandum proving up damages
for entry of final judgment (R. 100). Defendants The E
Company, T & W Edmier Corp., Edmier Corp., K. Edmier
& Sons, LLC, Thomas W. Edmier, William Edmier, The
William Edmier Trust, Lake Street Realty, Inc., and E
& E Equipment & Leasing, Inc. (“defendants”) filed an
objection on May 4, 2018. R. 102. On May 7, 2018, the Fund
moved for leave to cite supplemental authority addressing
an argument in defendants’ objection. R. 103. This Court
granted the Fund leave to file supplemental authority
and has considered that authority in this ruling. R. 105.
On May 8, 2018, defendants filed a surreply in support of
their objection. R. 106.
Analysis
Once the Court awards a plan withdrawal liability
under ERISA, defendants are jointly and severally liable
not only for the full amount of withdrawal liability, but
also interest, liquidated damages, attorneys’ fees, and
costs under 29 U.S.C. § 1132(g)(2). See, e.g., Cent. States
S.E. & S.W. Areas Pension Fund v. Slotky, 956 F.2d
1369, 1377 (7th Cir. 1992) (interest, liquidated damages,
attorneys’ fees, and costs properly added to withdrawal

10a
Appendix B
liability under 29 U.S.C. § 1132(g)(2)). Section1132(g)(2)
specifically provides:
In any action under this subchapter by a
fiduciary for or on behalf of a plan to enforce
section 1145 of this title in which a judgment
in favor of the plan is awarded, the court shall
award the plan—
(A) the unpaid contributions,
(B) interest on the unpaid contributions,
(C) an amount equal to the greater
of— (i) i nt e r e st on t he u np a id
contr ibutions, or (i i) liquidat ed
damages provided for under the
plan in an amount not in excess of 20
percent (or such higher percentage as
may be permitted under Federal or
State law) of the amount determined
by the court under subparagraph (A),
(D) reasonable attorney’s fees and
costs of the action, to be paid by the
defendant,
and (E) such other legal or equitable
relief as the court deems appropriate.
As set forth in this Court’s summary judgment opinion,
the amount of unpaid contributions in this case is $640,900.
R. 98 at 17. In addition to that amount, the Fund calculates
interest in the amount of $77,821.52, relying in support
on an affidavit from the Fund administrator that explains
the process of using the interest rates established by the
Pension Benefit Guaranty Corporation (in accordance with

11a
Appendix B
26 U.S.C. § 6621 and 29 U.S.C. § 1132(g)(2)) to calculate the
amount of interest. R. 99-1 ¶¶ 4-7. The Fund also calculates
liquidated damages in the amount of $64,090, which
represents 10% of the delinquency pursuant to the terms
of the Pension Trust Agreement and 29 U.S.C. § 1132(g)
(2). Id. ¶ 8. Finally, the Fund calculates total attorneys’
fees and costs from April 30, 2015 through March 2018
of $75,508, attaching an attorney affidavit setting forth
in detail the work performed and the billing rate for that
work (289 hours x $250 per hour = $72,346.13 of attorney
time, plus $3,161.87 in itemized costs), as well as the billing
records themselves. R. 99-2 ¶¶ 9-11; R. 99-3.
In response, defendants do not object to the
reasonableness of the Fund’s requested attorneys’ fees
and costs. And the Court finds that amount reasonable.
The award of reasonable attorney’s fees is a “mandatory
add-on[ ] in (successful) suits” for “failure to satisfy
withdrawal liability.” Slotky, 956 F.2d at 1377. “The most
useful starting point for determining the amount of a
reasonable fee is the number of hours reasonably expended
on the litigation multiplied by a reasonable hourly rate.”
Anderson v. AB Painting & Sandblasting Inc., 578 F.3d
542, 544 (7th Cir. 2009). This Court finds that the $250
hourly rate charged in this case is in line with market rates
approved for similar work. E.g., Bd. of Trustees of the Auto.
Mechanics’ Local No. 701 Union & Indus. Pension Fund
v. 6516 Ogden Ave., LLC, 170 F. Supp. 3d 1179, 1186 (N.D.
Ill. 2016) (Dow, J.) (“$257.00 per hour” rate reasonable “to
recover over $600,000 in unpaid ERISA liability”). And the
Court finds the 289 hours spent reasonable in light of the
relative complexity of this ERISA collection action, which

12a
Appendix B
spanned the course of two and a half years and required
the Fund’s counsel to address control group liability issues
involving a number of different defendant entities, as well
as belated supplemental briefing on summary judgment
raising new theories.
Defendants also do not object to the Fund’s requested
award of $77,821.52 in interest. 29 U.S.C. § 1132(g)(2)(B).
Nor do defendants object to the method used by the Fund
to calculate interest, which is the same method approved
by other courts in this district. E.g., 6516 Ogden Ave., 170
F. Supp. 2d at 1185-86.
Defendants object solely to the Fund’s requested
award of liquidated damages. They do not object to the
Fund’s calculation of the amount of liquidated damages,
which is straightforward: 10% of the unpaid contributions,
which amounts to $64,090. Instead, they focus on
subsection (C) of the statute, which states that the Fund
is entitled to “an amount equal to the greater of—(i)
interest on the unpaid contributions, or (ii) liquidated
damages provided for under the plan in an amount not in
excess of 20 percent (or such higher percentage as may
be permitted under Federal or State law) of the amount
determined by the court under subparagraph (A).” Id.
Defendants maintain that under subsection (C), the Fund
is entitled to interest or liquidated damages (whichever
is greater), but not both.
The problem with defendants’ argument is that it
ignores subsection (B) of the statute. Subsection (B)
makes clear that the Fund is entitled to “interest on the

13a
Appendix B
unpaid contributions” no matter what. 29 U.S.C. § 1132(g)
(2)(B). On top of the interest that the Fund is entitled to
under subsection (B), subsection (C) entitles the Fund to
the “greater of (i) interest on unpaid contributions (i.e.,
double interest) and (ii) liquidated damages provided for
in the plan.” E.g., Trustees of the Chicago Painters &
Decorators Pension, Health & Welfare & Deferred Sav.
Plan Tr. Funds v. Darwan, 2006 WL 897942, at *5 (N.D.
Ill. Mar. 31, 2006) (Pallmeyer, J.), aff’d sub nom. Trustees
of Chicago Painters & Decorators Pension, Health &
Welfare, & Deferred Sav. Plan Tr. Funds v. Royal Int’l
Drywall & Decorating, Inc., 493 F.3d 782 (7th Cir. 2007)
(emphasis added). The Seventh Circuit has expressly
rejected the argument “that the legislature did not mean
what it said when it mandated interest and double interest
on unpaid contributions” in cases where interest is greater
than liquidated damages. Moriarty ex rel. Local Union
No. 727, I.B.T. Pension Tr., & the Teamsters Local Union
No. 727 Health & Welfare Tr. v. Svec, 429 F.3d 710, 721
(7th Cir. 2005) (affirming “judgment of the district court
requiring Svec to pay Moriarty interest and double
interest totaling $51,628.10 on the unpaid contributions”
under “29 U.S.C. § 1132(g)(2)(B), (C)”).
Thus, courts routinely award interest under subsection
(B) plus liquidated damages or double interest under
subsection (C). See, e.g., id.; 6516 Ogden Ave., 170 F. Supp.
2d at 1185-86 (awarding under subsection (B) “interest
on . . . unpaid withdrawal liability” of $87,974.18, and
under subsection (C), liquidated damages of “10% of the
unpaid withdrawal liability” of $50,791.80); Cent. States,
Se. & Sw. Areas Pension Fund v. Allied Sys., Ltd., 795 F.
Supp. 2d 740, 743 (N.D. Ill. 2011) (“[u]nder Section 1132(g)

14a
Appendix B
(2), a plaintiff may seek the greater of double interest or
single interest plus liquidated damages”; awarding single
interest plus liquidated damages).
In this case, because the interest amount of $77,821.52
is greater than the liquidated damages amount of $64,090,
the Fund would be entitled to an award of “double
interest” if it had chosen to seek it. E.g., Darwan, 2006
WL 897942, at *5. But because the Fund has chosen to
request liquidated damages plus single interest instead
of double interest, this Court will award what the Fund
requests. Operating Engineers Local 139 Health Benefit
Fund v. Gustafson Const. Corp., 258 F.3d 645, 654 (7th
Cir. 2001) (“fund was entitled to choose between double
interest . . . and single interest plus liquidated damages”)1
Finally, defendants argue that a liquidated damages
award would be an unlawful penalty. This argument
is foreclosed by Seventh Circuit precedent, which has
upheld the lawfulness of the liquidated damages “penalty
. . . imposed on employers [by 29 U.S.C. § 1132(g)(2)
(C)(ii)] . . . that refuse to pay after receiving the notice
of assessment.” Central States Pension Fund v. Lady
1. Defendants’ surreply implies that Section 1132(g)(2) changed
between the Seventh Circuit’s decision in Gustafson and today.
Defendants say that Section 1132(g)(2) used to allow “an award of
double interest penalty,” whereas today it allows “statutory interest
‘or’ liquidated damages.” R. 106 at 2. But the statute was the same
then. It allowed for “interest . . . plus an amount equal to the greater
of that interest or ‘liquidated damages.’” Gustfason, 258 F.3d at 652
(emphasis added); see also 29 U.S.C. § 1132(g)(2) (1988) (same text
as today).

15a
Appendix B
Baltimore Foods, Inc., 960 F.2d 1339, 1347 (7th Cir. 1992);
see also Gustafson, 258 F.3d at 654 (“As for applying the
common law’s doctrine making contract penalty clauses
unenforceable to liquidated-damages provisions in ERISA
plans, the doctrine obviously is not intended to apply
to statutory penalties and if it did so apply, it would be
preempted. . . . [S]ection 1132(g)(2) is a penalty statute.”).
The primary case on which defendants rely, United Order
of American Bricklayers & Stone Masons Union No. 1 v.
Thorlief Larson & Sons, Inc., 519 F.2d 331 (7th Cir. 1975),
predated these cases and dealt only with a contractual
liquidated damages provision and not the statutory
provision in 29 U.S.C. § 1132(g)(2)(C)(ii). Id. at 332, 336.
Moreover, in Thorlief, the Seventh Circuit upheld a 10%
contractual liquidated damages clause as reasonable.
See id. at 336; see also Painters Dist. Council No. 30
Pension Fund v. Matan’s Painting & Decorating, Ltd.,
1994 WL 243868, at *6 (N.D. Ill. June 2, 1994) (case relied
on by defendants finding “$50.00 per month minimum
liquidated damages provision [in collective bargaining
agreement] . . . void as a penalty,” but that “plaintiffs [we]
re still entitled to liquidated damages under 29 U.S.C.
§ 1132(g)(2)(C)”).
For the foregoing reasons and as set forth in the
separate Order of Judgment, this Court grants the Fund’s
motion for attorney’s fees [99] and awards the Fund final
judgment in the amount of $858,319.52.

16a
Appendix B
ENTERED:
/s/Thomas M. Durkin
Honorable Thomas M. Durkin
United States District Judge
Dated: May 9, 2018

17a
Appendix C
APPENDIX C — MEMORANDUM
OPINION AND
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION, DATED
MARCH 21, 2018
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 15 C 10323
TRUSTEES OF THE SUBURBAN TEAMSTERS
OF NORTHERN ILLINOIS PENSION FUND,
Plaintiffs,
v.
THE E COMPANY, et al.,
Defendants.
March 21, 2018, Decided;
March 21, 2018, Filed
Honorable Thomas M. Durkin, United States District
Judge.
MEMORANDUM OPINION & ORDER
Plaintiffs Trustees of the Suburban Teamsters
of Northern Illinois Pension Fund (“the Fund”) sued
defendants The E Company, T & W Edmier Corp., Edmier
Corp., K. Edmier & Sons, LLC, Thomas W. Edmier,

18a
Appendix C
William Edmier, The William Edmier Trust, Lake
Street Realty, Inc., and E & E Equipment & Leasing,
Inc. (“defendants”) to collect liability incurred under
the Employee Retirement Income Security Act of 1974
(“ERISA”) after The E Company and T & W Edmier
withdrew from the Fund. The Fund seeks to hold all
defendants—a group of closely-held entities and their
owners—jointly and severally liable for The E Company
and T & W Edmier’s withdrawal liability.
Currently before the Court is the Fund’s motion for
summary judgment. R. 47. For the reasons that follow,
the Court grants the Fund’s motion.1
STANDARD
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a); see also Celotex Corp. v. Catrett,
477 U.S. 317, 322-23, 106 S. Ct. 2548, 91 L. Ed. 2d 265
(1986). The Court considers the entire evidentiary record
and must view all of the evidence and draw all reasonable
inferences from that evidence in the light most favorable
to the nonmovant. Ball v. Kotter, 723 F.3d 813, 821 (7th
Cir. 2013). To defeat summary judgment, a nonmovant
must produce more than “a mere scintilla of evidence” and
1. The Court also grants defendants’ motion for an extension of
time to file supplemental briefing (R. 84). This Court has considered
that supplemental briefing in its ruling. The Court grants in part and
denies in part the Fund’s motion to strike defendants’ supplemental
statement of additional facts (R. 93).

19a
Appendix C
come forward with “specific facts showing that there is a
genuine issue for trial.” Harris N.A. v. Hershey, 711 F.3d
794, 798 (7th Cir. 2013). Ultimately, summary judgment
is warranted only if a reasonable jury could not return a
verdict for the nonmovant. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248, 106 S. Ct. 2505, 91 L. Ed. 2d 202
(1986).
ANALYSIS
It is well-established that “[w]hen an employer
participates in a multiemployer pension plan and then
withdraws,” not only can federal courts enter judgment
against the employer for withdrawal liability, but they can
“impose liability on owners and related businesses.” Cent.
States Se. & Sw. Areas Pension Fund v. Messina Prod.,
LLC, 706 F.3d 874, 877 (7th Cir. 2013). As shown below,
based on straightforward application of ERISA principles,
withdrawing employers The E Company and T & W
Edmier’s liability assessment is due and owing, and they
have waived any defenses to that assessment by failing
to arbitrate. Less straightforward is the issue of whether
the other defendants are jointly and severally liable for
that withdrawal liability. The Court first addresses the
withdrawing employer defendants’ liability, followed by
the other defendants’ joint and several liability.
A. Liability of Withdrawing Employers
ERISA, “as amended by the Multiemployer Pension
Plan Amendments Act of 1980 (MPPAA), establishes
withdrawal liability for employers leaving a multiemployer

20a
Appendix C
pension plan.” Ind. Elec. Workers Pension Ben. Fund
v. ManWeb Servs., 884 F.3d 770, 2018 U.S. App. LEXIS
6103, 2018 WL 1250471, at *1 (7th Cir. Mar. 12, 2018). “[A]
complete withdrawal from a multiemployer plan occurs
when an employer (1) permanently ceases to have an
obligation to contribute under the plan, or (2) permanently
ceases all covered operations under the plan.” 29 U.S.C.
§ 1383.
Defendant T & W Edmier, a construction company,
signed a collective bargaining agreement with the Fund,
which The E Company adopted in a joint and several
liability agreement. R. 72 (Ds’ Resp. to Ps’ L.R. 56.1
Statement 2) ¶¶ 7-8, 36-37. Both T & W Edmier and The E
2. Defendants responded to numerous paragraphs in the Fund’s
Local Rule 56.1 Statement of Material Facts by stating “disputed”
or by making a factual assertion without citing any evidence in
support. These responses plainly violated the local rules, which
obligated defendants to “includ[e], in the case of any disagreement,
specific references to the affidavits, parts of the records, and other
supporting materials relied on.” L.R. 56.1(b)(3)(B). After the Fund
highlighted this issue in its reply (R. 73 at 2), defendants’ counsel
admitted non-compliance and sought leave to file a supporting
affidavit on or before November 28, 2017, which the Court granted.
R. 78. But defendants never filed a supporting affidavit. The Court
therefore deems admitted all facts set forth in the Fund’s Local Rule
56.1 Statement. See, e.g., Curtis v. Costco Wholesale Corp., 807 F.3d
215, 218-19 (7th Cir. 2015) (“When a responding party’s statement
fails to dispute the facts set forth in the moving party’s statement
in the manner dictated by the [local] rule, those facts are deemed
admitted for purposes of the motion. The non-moving party’s failure
to admit or deny facts as presented in the moving party’s statement
or to cite to any admissible evidence to support facts presented in
response by the non-moving party render the facts presented by

21a
Appendix C
Company stopped making contributions to the Fund and
closed operations in 2014. Id. ¶ 23. These facts constitute
a complete withdrawal.
Under ERISA, an employer who completely withdraws
“is liable to the plan in the amount determined . . . to be
the withdrawal liability.” 29 U.S.C. § 1381. If the employer
does not pay, the plan can declare a default, and after
giving notice of default, accelerate the full amount of
withdrawal liability. 29 U.S.C. § 1399(c)(5).
The Fund assessed withdrawal liability of $640,900
against The E Company and T & W Edmier. R. 72 ¶¶ 21,
46. The Fund sent The E Company and T & W Edmier
a notice of withdrawal liability on April 30, 2015, a past
due notice on August 17, 2015, and a default notice and
acceleration on November 12, 2015. Id. ¶¶ 41, 42, 44,
45. The companies never made any liability payments,
the moving party as undisputed.”); McGuire v. United Parcel Serv.,
152 F.3d 673, 675 (7th Cir. 1998) (“An answer that does not deny the
allegations in the numbered paragraph with citations to supporting
evidence in the record constitutes an admission.”).
The Court also grants the Fund’s motion to strike defendants’
Supplemental Statement of Additional Facts (R. 91)—filed on March
9, 2018 after new counsel appeared for defendants in the case—to
the extent that it attempts to contradict facts deemed admitted
based on defendants’ failure to respond properly to the Fund’s Local
Rule 56.1 Statement. Defendants waived their right to correct their
prior response by failing to file a supporting affidavit when this
Court authorized them to do so. The Court otherwise denies the
Fund’s motion to strike (R. 91), but finds that the facts presented in
defendants’ Supplemental Statement do not change its conclusions.

22a
Appendix C
responded to the notices, raised any defense, or requested
arbitration during the time permitted by ERISA, 29
U.S.C. § 1401. Id. ¶¶ 46-47.
T & W Edmier and The E Company claim they “were
unable to pay due to the involuntary dissolution of T & W
Edmier Corp. and The E Company,” and that they stopped
operating well before receiving the notice of withdrawal
liability. R. 71 at 5. But ERISA is clear that such a dispute
must be arbitrated. See 29 U.S.C. § 1401(a)(1) (“Any
dispute between an employer and the plan sponsor of a
multiemployer plan concerning a determination made
under sections 1381 through 1399 [including withdrawal
liability determinations under § 1399] of this title shall
be resolved through arbitration.”); Robbins v. Admiral
Merchants Motor Freight, Inc., 846 F.2d 1054, 1057 (7th
Cir. 1988) (“[v]ery simply, § 1401(a)(1) requires arbitration
of any dispute regarding a determination made under
§§ 1381-1399”).
Failure to arbitrate means that “the plan can then
immediately file suit,” as it has in this case, “to collect
the entire amount of withdrawal liability, and in that
proceeding the employer will have forfeited any defenses
it could have presented to the arbitrator.” Nat’l Shopmen
Pension Fund v. DISA Indus., Inc., 653 F.3d 573, 579
(7th Cir. 2011) (citing 29 U.S.C. § 1401(b)(1)); accord Cent.
States S.E. & S.W. Areas Pension Fund v. Slotky, 956 F.2d
1369, 1372 (7th Cir. 1992) (“fail[ure] to request arbitration”
means “the amount of withdrawal liability assessed by the
plan becomes due and owing and the plan can . . . sue to
collect it”). Because The E Company and T & W Edmier

23a
Appendix C
failed to arbitrate, the $640,900 withdrawal liability
assessment is “due and owing” (Slotky, 956 F.2d at 1372),
and defenses that could have been raised in arbitration
are waived (Nat’l Shopmen, 653 F.3d at 579).
B. Joint and Several Liability of Other Defendants
“Not only the w ithdraw ing employer” incurs
withdrawal liability. Messina, 706 F.3d at 878. “Congress
also provided that all ‘trades or businesses’ under ‘common
control’ with the withdrawing employer are treated as
a single entity for purposes of assessing and collecting
withdrawal liability. Each trade or business found to be
under common control is jointly and severally liable for
any withdrawal liability of any other.” Id. (quoting 29
U.S.C. § 1301(b)(1)). This is commonly referred to as “the
controlled group provision.” Slotky, 956 F.2d at 1372.
The purpose of this provision is “to prevent businesses
from shirking their ERISA obligations by fractionalizing
operations into many separate entities.” Messina, 706
F.3d at 878.
The Fund maintains that all defendants are part of
a controlled group, and that they have waived any ability
to challenge controlled group membership by failing to
arbitrate. Defendants dispute that they are part of a
controlled group, and cite older, out-of-circuit case law
for the proposition that failure to arbitrate is not an
absolute, jurisdictional bar to this Court deciding disputes
regarding controlled group membership. R. 71 at 5-7.
Although defendants are correct that failure to
arbitrate is not a jurisdictional bar to a district court’s

24a
Appendix C
adjudication of controlled group disputes (Slotky, 956
F.2d at 1373), defendants ignore and fail to apply the
relevant Seventh Circuit precedent. In Slotky, the Seventh
Circuit held that it is proper for federal district courts to
determine “some disputes over membership in a controlled
group” even if defendants failed to arbitrate. 956 F.2d at
1373. Although it declined to provide a definitive test, the
Slotky court identified two circumstances where district
courts can decide such disputes. The first is where the fund
concedes that the district court can consider the controlled
group issue, as was the case in Slotky. Id. The second is
where “people who had absolutely no reason to believe
that they might by deemed members of a controlled group
[otherwise] would be foreclosed from litigating the issue
in any forum because they never received notice of their
potential liability.” Id. The court provided the following
example:
[T]he plan could have sued the Easter Bunny
and when the Bunny complained that he was
not a trade or business under common control
with [the withdrawing employer, the plan]
could have replied that the Bunny had waived
the argument by failing to demand arbitration
within the statutory deadline. For of course [the
withdrawing employer], never suspecting that
the Easter Bunny might be a trade or business
under common control with it, would not have
forwarded the notice to the Bunny.
Id. at 1372-73.

25a
Appendix C
This case does not involve the first circumstance
identified in Slotky. Far from conceding that this Court
may properly decide defendants’ controlled group dispute,
the Fund instead argues vehemently that defendants have
forfeited that dispute through failure to arbitrate. Nor
can any of the defendants in this case be deemed to be as
unsuspecting of potential liability as the Easter Bunny in
the second circumstance identified in Slotky.
But the Slotky court did not provide a definitive test
to apply in less extreme cases. It seems clear under Slotky
that a defendant who “received notice of . . . potential
liability” has waived a dispute over controlled group
membership by failing to arbitrate. See id.; see also
Chicago Truck Drivers, Helpers & Warehouse Workers
Union (Indep.) Pension Fund v. El Paso CGP Co., 2005
U.S. Dist. LEXIS 24579, 2005 WL 2737072, at *7-8 (N.D.
Ill. Oct. 18, 2005) (defendant receiving notice waives
dispute over controlled group membership under Slotky).
Three of the non-withdrawing-employer defendants—
Thomas Edmier, William Edmier, and Edmier Corp.—are
named in the notice of withdrawal liability. R. 95 at 10
(letter is addressed to “T & W Edmier Corporation and
The E Company,” “Edmier Corp.,” “Attention: Thomas
Edmier,” “Attention: William Edmier,” and “Attention:
Kevin W. Edmier”). Defendants admit that the notice
of withdrawal liability and the notice of default were
both sent to defendant Edmier Corp. R. 96 (Pls’ Resp.
Ds’ Additional Facts) ¶¶ 2, 7. But other defendants—K.
Edmier & Sons, the William Edmier Trust, Lake Street
Realty, and E & E Equiment & Leasing—are not named
in the notice. R. 95 at 10.

26a
Appendix C
Even if not actually named in the notice, the Slotky
court explained that “the statutory policy of encouraging
the prompt nonjudicial resolution of disputes” might
require any defendant who “should know that he might
very well be deemed a member of the controlled group” “to
institute arbitration on penalty of losing all opportunity
to contest his membership.” 956 F.2d at 1373. Based on
the fact that the notice of withdrawal liability was sent to
the address where K. Edmier & Sons and Lake Street
Realty had their principal places of business (R. 72
¶¶ 11, 17, 27), they too might be deemed to have been on
constructive notice of potential liability and to have waived
any controlled group membership defense. 3 Moreover,
the fact that counsel for defendants in this case, George
Grumley, received the notice of withdrawal liability (id.
¶¶ 28, 41), could support the conclusion that all defendants
3. Defendants claim the following statement in the notice of
withdrawal liability was misleading as to non-withdrawing-employer
defendants’ potential liability: “The withdrawal liability is based
only on the contributions made by the T & W Edmier Corporation
and The E Company. If there are companies under common control
with T & W Edmier Corporation or The E Company and if those
companies have also contributed to the Pension Fund, then the
contribution history of those companies should be considered in
calculating the withdrawal liability.” R. 95 at 10. Defendants say they
took these sentences to mean that potential liability of other entities
was “predicated on whether they ‘have also contributed to the fund.’”
R. 92 at 8. That is not what these sentences say. Instead, they say
that the withdrawal liability calculation might change based on the
contribution history of other companies under common control. They
do not speak one way or another to the issue of whether companies
under common control might be held jointly and severally liable for
the withdrawal liability already calculated for T & W Edmier and
The E Company.

27a
Appendix C
should have been alerted to their potential liability as
controlled group members.4
In sum, the Court finds that at least Edmier Corp.
has forfeited its controlled group membership dispute
through failure to arbitrate because defendants admit
that it received notice. R. 96 ¶¶ 2, 7. Thomas Edmier,
and William Edmier, and the other non-withdrawingemployer defendants, likely forfeited their controlled
group membership dispute through failure to arbitrate as
well. But because the forfeiture issue is not clear cut, 5 the
4. Defendants’ complaint that the notice “fail[ed] to provide
defendants an explanation of control group liability,” which is not
self-evident to laymen (R. 92 at 4-9), rings hollow in light of the
fact that defendants’ attorney received the notice and could have
explained it to them.
5 . D efend a nt s f i le d a t wel ve - p a g e “ S upplement a l
Memorandum on the Issue of Procedural Due Process” (R. 92)
arguing that finding a forfeiture based on failure to arbitrate
violates principles of “procedural due process,” which dictate “that
a person may not have his rights or obligations determined in any
proceeding for which he has not been afforded reasonable notice.”
R. 92 at 1-2. Defendants cite pre-ERISA Supreme Court law for the
basic proposition that notice must be “reasonably calculated . . . to
apprise interested parties of the pendency of the action.” Mullane
v. Central Hanover Bank & Trust Co., 339 U.S. 306, 314, 70 S. Ct.
652, 94 L. Ed. 865 (1950). They argue that the non-withdrawingemployer defendants were “deprived . . . of fair warning” that they
might be liable for withdrawal liability. R. 92 at 7.
The Court finds that the principles espoused in Slotky account
for procedural due process concerns and constitute the governing
law in this area. See 956 F.2d at 1372-73, 1375 (addressing notice
and fairness concerns regarding “people who had absolutely

28a
Appendix C
no reason to believe that they might be deemed members of a
controlled group,” and finding that “the requirements of due
process [we]re met” in that case).
In any event, this Court goes on to find affirmatively that
all but one of the defendants are members of a controlled group
with one of the withdrawing-employer defendants. This finding
eliminates any concern with the lack of notice provided to these
defendants. As defendants concede, “courts have consistently held
that notice to one employer within a control group is sufficient
notice to all members in the control group.” R. 71 at 13. “The
controlled group provision allows a plan to deal exclusively with
the defaulting employer known to the fund, while at the same time
assuring [itself] that legal remedies can be maintained against
all related entities in the control group.” Chicago Truck Drivers
v. El Paso Co., 525 F.3d 591, 595-96 (7th Cir. 2008).
It is unclear whether defendants intend in their supplemental
memorandum to mount a further procedural due process challenge
to the controlled group provision in ERISA, 29 U.S.C. § 1301(b),
which courts have relied on to find that notice to one controlled
group member is “constructive notice to all other members.” E.g.,
El Paso, 525 F.3d at 596. If defendants did intend to make such an
argument, this Court joins other courts in rejecting it. See, e.g.,
Bd. of Trustees of W. Conference of Teamsters Pension Tr. Fund
v. H.F. Johnson Inc., 830 F.2d 1009, 1013 (9th Cir. 1987) (rejecting
argument that “§ 1301(b) violates procedural requirements of
the Due Process Clause” because “the requirement of common
control in § 1301(b) assures that individuals and entities who
may ultimately be held liable for withdrawal liability in fact have
notice and an opportunity to contest the existence and extent of
that liability”); Cent. States, Se. & Sw. Areas Pension Fund v.
Skyland Leasing Co., 691 F. Supp. 6, 13 (W.D. Mich. 1987), aff’d
sub nom. Cent. States, Se. & Sw. Areas Pension Fund v. Skyland
Leasing, 892 F.2d 1043 (6th Cir. 1990) (“Defendant’s contention
that Section 1301(b)(1) should be read to mean that all entities

29a
Appendix C
Court will also address controlled group membership on
the merits. See Slotky, 956 F.2d at 1373-74 (even though
technically factual, controlled group membership is
properly decided on summary judgment).
To be part of the same controlled group, individuals
or entities must be (1) “trades or businesses” under
(2) “common control” with the withdrawing employer.
Messina, 706 F.3d at 878 (quoting 29 U.S.C. § 1301(b)(1)).
The Court addresses each element in turn, first for the
non-withdrawing-employer entity defendants, followed by
the individual and trust defendants.
1.

Trades or Businesses

Entity defendants. “The phrase ‘trade or business’
is not defined” in ERISA. Id. “To apply the term under
the MPPAA, [the Seventh Circuit has] adopted the test
adopted by the Supreme Court . . . in Commissioner of
Internal Revenue v. Groetzinger, 480 U.S. 23, 35, 107 S. Ct.
980, 94 L. Ed. 2d 25 (1987). The ‘Groetzinger test’ requires
that for economic activity to be considered the operation
of a trade or business the activity must be performed (1)
for the primary purpose of income or profit; and (2) with
continuity and regularity.” Messina, 706 F.3d at 878.
within the control group be afforded the same procedural due
process rights as the withdrawn employer and given separate
notice of withdrawal liability emasculates the concept of ‘single
employer.’”); see also Slotky, 956 F.2d at 1375 (“the requirements
of due process are met” despite seeming harshness of rule “that
notice to one member of a controlled group is notice to all”).

30a
Appendix C
Defendants’ summary judgment response does
not dispute that the non-withdrawing-employer entity
defendants—Edmier Corp., K. Edmier & Sons, Lake
Street Realty, and E & E Equipment & Leasing—
qualified as trades or businesses. And although defendants
claim in their response to the Fund’s Local Rule 56.1
Statement that Edmier Corp., Lake Street Realty, and E
& E Equipment & Leasing were never active in business
(R. 72 ¶¶ 11, 14, 19), they do not cite any evidentiary
support. The fact that these corporations were active in
business is therefore deemed admitted. See Curtis, 807
F.3d at 218-19. And in any event, as the Seventh Circuit
explained in Messina, “[i]t is highly unlikely that a formal
for-profit business organization would not qualify as a
trade or business under the Groetzinger test.” 706 F.3d
at 885.
Individual and trust defendants. As with the
individual defendants in Messina, “[t]he Fund does
not seek to hold [the individual and trust defendants]
liable merely because of their ownership of or positions
within [the employer-defendant], nor could it” under the
Groetzinger test. Id. at 880. “Instead, the Fund seeks to
hold [these defendants] liable for operating as a ‘trade
or business’ as commercial and residential landlords.”
Id. The Seventh Circuit has held that “renting property
to a withdrawing employer is ‘categorically’ a trade or
business.” Id. at 881 (citing Central States, S.E. & S.W.
Areas Pension Fund v. SCOFBP, LLC, 668 F.3d 873
(7th Cir. 2011)). Specifically, permitting a withdrawing
employer “to operate on the property [the individual
defendants] owned without a formal written lease and

31a
Appendix C
without paying rent for several years” constitutes a trade
or business. Id.
Here, just as in Messina, defendants Thomas and
William Edmier, individually and as trustees of defendant
the William Edmier Trust, owned the premises at 249 W.
Lake Street, Elmhurst, Illinois. R. 72 ¶¶ 9-10. As owners,
these defendants permitted withdrawing employer T & W
Edmier to “operate[ ] from that address without a lease
and pa[y] no rent from 1986 until its closing in 2014.” R.
72 ¶ 9. Thus, defendants Thomas and William Edmier and
the William Edmier Trust’s “rental activities satisf[y] the
Groetzinger test” and qualify as a “trade or business.”
Messina, 706 F.3d at 884.
2.

Common Control

Entity defendants. As the Fund correctly explains,
defendants “are all interlocking enterprises of closely held
corporations doing business with the withdrawal employer
and owned or controlled by” the Edmier family. R. 49 at
11. The initial capital for all defendants was provided by
William and Thomas Edmier’s bank accounts. R. 72 ¶ 6.
The non-withdrawing-employer defendants nevertheless
dispute the element of common control.
“The [Pension Benefit Guarantee Corporation] has
adopted the language set forth in Section 414(c) of the
Internal Revenue Code, which identifies both ‘parentsubsidiary’ and ‘brother-sister’ organization groupings as
forms of common control.” Cent. States, Se. & Sw. Areas
Pension Fund v. SCOFBP, LLC, 738 F. Supp. 2d 840, 846

32a
Appendix C
(N.D. Ill. 2010), aff’d, 668 F.3d 873 (7th Cir. 2011) (citing
26 C.F.R. § 1.414(c)-2). “A ‘brother-sister group’ is one
in which (1) ‘five or fewer persons who are individuals,
estates, or trusts’ own a controlling interest (at least 80
percent of the stock [or the equivalent in non-corporations])
in two or more organizations and (2) the same persons
maintain ‘effective control’ (at least 50 percent of the
stock [or the equivalent in non-corporations]) over each
organization.” Id. But “a person’s stock ownership is not
taken into account for purposes of the 80% control test
unless that person owns stock in each corporation of the
putative brother-sister group.” Cent. State v. Wolk, 2001
U.S. Dist. LEXIS 3531, 2001 WL 301145, at *4 (N.D. Ill.
Mar. 28, 2001); 26 C.F.R. § 1.414(c)-2(c).
As an initial matter, the Court finds that the issue
of ownership and control over the defendants—and in
particular stock ownership—is not well briefed by either
party. The Court takes defendants’ failure to contest
relevant facts about controlled group membership,
including company ownership and control, or to provide
evidentiary support for the counter-assertions in its
responses to the Fund’s factual statements, as admissions.
See Curtis, 807 F.3d at 218-19.
The Court finds that two brother-sister controlled
groups exist in this case. Two individuals—Thomas and
William Edmier—own withdrawing-employer defendant
T & W Edmier, as well as non-withdrawing-employer
defendants Lake Street Realty and E & E Equipment
& Leasing. See R. 72 ¶ 5 (prior to its dissolution, T & W
Edmier was owned 50% by Thomas and 50% by William

33a
Appendix C
Edmier); R. 72 ¶¶ 11, 14, 31 (Lake Street Realty and E
& E Equipment & Leasing are owned and controlled by
Thomas and William Edmier). Lake Street Realty, E &
E Equipment & Leasing, and T & W Edmier thus make
up one controlled group.
One individual—Kevin Edmier—owns and controls
both withdrawing-employer defendant The E Company
and non-withdrawing-employer defendant K. Edmier &
Sons. R. 71 at 3 (defendants admit that “The E Company
is owned by Kevin Edmier”); R. 72 ¶ 16 (Kevin Edmier
is president of The E Company); (R. 71 at 3 & R. 72 ¶¶ 17,
26 (“Kevin Edmier is the only member” and shareholder
of defendant “K. Edmier & Sons, LLC”). The E Company
and K. Edmier & Sons thus make up another brothersister controlled group.
Edmier Corp. does not appear to be part of either
controlled group because William Edmier owns all of it
(see R. 72 ¶¶ 18, 25), and William Edmier does not own
80% of either T & W Edmier or The E Company. See
Wolk, 2001 U.S. Dist. LEXIS 3531, 2001 WL 301145, at
*4 (“a person’s stock ownership is not taken into account
for purposes of the 80% control test unless that person
owns stock in each corporation of the putative brothersister group”); 26 C.F.R. § 1.414(c)-2 (Example 4). But, as
set forth above, the Court finds that Edmier Corp. has
forfeited its right to contest controlled group membership
because it was named on the notice of withdrawal liability
and notice of default.
Defendants further argue that these entities’
activities need to have an economic nexus in order for them

34a
Appendix C
to be under common control. As defendants themselves
acknowledge (R. 71 at 11), however, the Seventh Circuit
has expressly rejected this argument. The Seventh
Circuit held in Cent. States, Se. & Sw. Areas Pension
Fund v. Fulkerson, 238 F.3d 891, 895 (7th Cir. 2001), and
“confirmed” in Central States, S.E. & S.W. Areas Pension
Fund v. White, 258 F.3d 636, 641 (7th Cir. 2001), that “no
such nexus is required in order to impose liability.” White,
258 F.3d at 641.
Individual and trust defendants. Individual
defendants Thomas and William Edmier own 100% of
withdrawing-employer defendant T & W Edmier, and
Thomas and William Edmier, individually and as trustees
of the William Edmier Trust, own 100% of their rental
activity associated with the property at 249 W. Lake
Street, Elmhurst, Illinois. R. 72 ¶¶ 9-10, 29. This means
that the leasing trade or business of Thomas and William
Edmier and the William Edmier Trust is under “common
control” with the trade and business of T & W Edmier
as part of the T & W Edmier controlled group. See, e.g.,
White, 258 F.3d at 641 (“all of the stock of Jones Transfer,
the entity incurring withdrawal liability, was owned by
Trans Jones, 93.53% of the stock of which was owned by
Mr. White,” and “[s]ince the Whites owned 100% of their
garage rental activity (i.e., their home), the leasing activity
and the Trans Jones Companies are under ‘common
control’”); Cent. States Se. & Sw. Areas Pension Fund v.
Miller, 868 F. Supp. 995, 1000 (N.D. Ill. 1994) (brothersister controlled group provision satisfied where couple “at
the time they leased the house, had 100 percent ownership
of Miller Brothers,” and “also had 100 percent ownership
of the real estate enterprise”).

35a
Appendix C
***
As trades or businesses under common control with
one of the withdrawing-employer defendants, the Court
finds that all defendants (except Edmier Corp., which
was sent notice and has forfeited any controlled group
challenge) satisfy the Groetzinger test. This means that
“notice to one member of a controlled group [wa]s notice
to all.” Slotky, 956 F.2d at 1375. It means that these
defendants have “waived the issues that are reserved
for arbitration,” id. at 1373, including arguments about
ability to pay and sufficiency of notice set forth in their
supplemental memorandum (R. 92). And it means that
defendants are jointly and severally liable. See, e.g.,
Messina, 706 F.3d 878.
The Court therefore grants the Fund’s motion for
summary judgment. R. 47. Under ERISA, defendants are
jointly and severally liable not only for the full amount
of withdrawal liability ($640,900), but also interest,
liquidated damages, attorneys’ fees, and costs.6
6. 29 U.S.C. § 1132(g)(2) (“In any action under this subchapter
by a fiduciary for or on behalf of a plan to enforce section 1145
of this title in which a judgment in favor of the plan is awarded,
the court shall award the plan—(A) the unpaid contributions, (B)
interest on the unpaid contributions, (C) an amount equal to the
greater of—(i) interest on the unpaid contributions, or (ii) liquidated
damages provided for under the plan in an amount not in excess of
20 percent (or such higher percentage as may be permitted under
Federal or State law) of the amount determined by the court under
subparagraph (A), [and] (D) reasonable attorney’s fees and costs of
the action, to be paid by the defendant.”); see also Slotky, 956 F.2d
at 1377 (interest, liquidated damages, attorneys’ fees, and costs
properly added to withdrawal liability under 29 U.S.C. § 1132(g)(2)).

36a
Appendix C
CONCLUSION
For the foregoing reasons, the Court: (1) grants
the Fund’s motion for summary judgment (R. 47); (2)
grants defendants’ motion for extension of time to file
supplemental briefing (R. 84); and (3) grants in part and
denies in part the Fund’s motion to strike defendants’
supplemental statement of additional facts (R. 93). The
Fund should file a petition setting forth its claimed
interest, liquidated damages, attorneys’ fees, and costs,
along with a proposed order, on or before April 20, 2018.
Defendants should file a response on or before May 4, 2018.

ENTERED:
/s/ Thomas M. Durkin
Honorable Thomas M. Durkin
United States District Judge
Dated: March 21, 2018

37a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT, CHICAGO, ILLINOIS
60604, FILED MARCH 4, 2019
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
CHICAGO, ILLINOIS 60604
March 4, 2019
Before
Frank h. easterbrook, Circuit Judge
A My c. Barrett, Circuit Judge
MIchael Y. Scudder, Circuit Judge
No. 18-2273
TRUSTEES OF THE SUBURBAN TEAMSTERS
OF NORTHERN ILLINOIS PENSION FUND,
Plaintiff-Appellee,
v.
THE E COMPANY, A DISSOLVED ILLINOIS
CORPORATION, et al.,
Defendants-Appellants.

38a
Appendix D
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division.
No. 1:15-cv-10323
ThoMas M. DurkIn, Judge.
ORDER
Defendants-appellants filed a petition for rehearing
and rehearing en banc on February 12, 2019. No judge in
regular active service has requested a vote on the petition
for rehearing en banc, and all members of the original
panel have voted to deny panel rehearing. The petition for
rehearing and rehearing en banc is therefore DENIED.

